September 30, 2008

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

PRITHA MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – Political Campaign Mailings
         (Report Number MS-AR-08-006)

This report presents the results of our self-initiated audit of Political Campaign Mailings
(Project Number 07RG001MS000). Our objectives were to determine whether U.S.
Postal Service officials:

       Recorded political campaign mailings in the political mail log before inducting the
        mailings into the mail stream.

       Notified mailers who deposited political mailings that may be too late for delivery
        by the election date, of the potential for late delivery, and documented the advice
        provided to them in the political mail log.

       Documented all political campaign mail inquiries and their resolution.

Click here to go to Appendix A for additional information about this audit.

Conclusion

Officials in the districts we reviewed did not always record political campaign mailings in
the political mail log before inducting the mailings into the mail stream. In addition,
officials maintained duplicate political campaign mail recordkeeping systems. Further,
officials did not always notify mailers who deposited political campaign mailings that
may be too late for delivery by the election date, of the potential for late delivery, and
document the advice provided to them in the political mail log. Also, officials did not
always document political campaign mail inquiries and their resolutions. These issues
could result in refund of postage and negative publicity. We will report this non-
monetary impact for goodwill/branding in our Semiannual Report to Congress. Finally,
Political Campaign Mailings                                                     MS-AR-08-006



the Postal Service may be subsidizing political candidates and committees by providing
First-Class Mail® service for materials mailed at Standard Mail® rates.

Political Campaign Mail Recordkeeping Needs Improvement

Officials did not always record political campaign mailings in the political mail log before
inducting the mailings into the mail stream. This occurred because although employees
were aware of relevant policies and procedures for recording such mailings, they simply
did not always comply with them, and there are no controls to identify the errors. As a
result, the Postal Service may not have adequate records to resolve customer
complaints, which could result in refund of postage and negative publicity.

In addition, officials maintained duplicate political campaign mail recordkeeping systems
– an automated recordkeeping system contained in PostalOne! and a manual log.
Information contained in the two systems did not always reconcile. This occurred
because Headquarters Business Mail Acceptance officials initiated actions to automate
the political mail recordkeeping process in PostalOne!, but did not coordinate their
efforts with end users to properly implement the automated system and eliminate the
manual process. As a result, the Postal Service is expending unnecessary labor costs
to maintain these duplicate political campaign mail recordkeeping systems. Click here
to go to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Business Mail Entry and Payment Technologies,
coordinate with the Vice Presidents, Area Operations, to:

1. Consolidate the manual political mail log into the automated recordkeeping system
   in PostalOne! for all sites that have access to the PostalOne! system. Require sites
   that do not have access to the PostalOne! system to maintain the manual political
   mail log and transmit the political campaign mailing information to their respective
   Business Mail Entry Units to be entered into PostalOne!.

2. Program PostalOne! to require employees to identify political campaign mailings in
   the system.

3. Reinforce to employees the importance of recording political campaign mail
   information.

Management’s Comments

Management disagreed with recommendation 1, asserting that PostalOne! was never
designed to be a data collection and management system for political mail logs, and the
manual log process, with certain revisions, is effective in ensuring enough information is
obtained to deal with any customer issues that appear. Management disagreed with
recommendation 2 because employees are already required to identify whether a
mailing is political, and because our recommendation would increase costs with minimal




                                             2
Political Campaign Mailings                                                      MS-AR-08-006



benefit. Management’s calculations showed that using one second for each of 14
million mailings would add 38,000 workhours. Management agreed with our finding and
recommendation 3 – to reinforce to employees the importance of recording political
campaign mail information. Management will conduct communication awareness and
training sessions particularly around campaign and election periods. They will add
steps to their self-audits that include checking for political mail logs and validating
postage statements are properly recorded in the PostalOne! System. Management
plans to accomplish these actions by the end of 2008. Management’s comments, in
their entirety, are included in Appendix C.

Evaluation of Management’s Comments

We disagree with management’s position on recommendation 1. As management’s
response to recommendation 4 notes, PostalOne!’s design includes comment fields, so
there are no design limitations that make our recommendation impractical. We note
that Business Mail Acceptance officials already started the process that we recommend;
we simply suggest that management complete it. Management’s assertion that a
revised manual log process will be effective in ensuring enough information is obtained
leaves in place the problem of duplicative processes. It will not be possible to
determine whether Business Mail Entry managers and postmasters are complying with
the requirement to record all political campaign mailings.

We also disagree with management’s position on recommendation 2. Taking one
second to identify political mailings in PostalOne! is much faster than logging the mailing
manually (note that 14,000,000 seconds ÷ 3,600 seconds/hour = 3,889 hours, not
38,000 hours). The suggestion that because political campaign mailings are a small
percentage of all mailings, employees would “without conscious effort” routinely indicate
that mailings are not political, can be addressed by management’s proposed action
under recommendation 3, to conduct awareness and training sessions around
campaign and election periods.

In conclusion, management’s corrective actions will not resolve the issues identified in
the report.

Mailings Deposited too Late for Delivery by the Election Date

Officials did not always notify mailers who deposited political mailings that may be too
late for delivery by the election date, of the potential for late delivery, and document the
advice provided to them in the political mail log. This occurred because Postal
Service’s guidance to employees regarding the handling of late deposited political mail
is not consistent and specific. If officials do not notify mailers that their political
campaign mailings may not be delivered by the election date, mailers may not have the
opportunity to use alternate delivery methods such as handing out the campaign
material to potential voters. Additionally, if officials do not document the advice
provided to mailers, the Postal Service may not have adequate documentation to




                                              3
Political Campaign Mailings                                                 MS-AR-08-006



resolve customer complaints, which could result in the refund of postage fees, negative
publicity, and an adverse impact on the Postal Service brand. Click here to go to
Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Business Mail Entry and Payment Technologies,
coordinate with the Vice Presidents, Area Operations, to:

4. Include a field in PostalOne! for employees to document the advice provided to
   mailers regarding late arriving political campaign mail, and revise the guidance in
   Handbook DM 109, Business Mail Acceptance, and the Postal Operations Manual to
   instruct the employees to use PostalOne! to document this advice.

5. Reinforce to employees the importance of advising mailers regarding late arriving
   political campaign mail.

Management’s Comments

Management partially agreed with our finding and recommendation number 4. They did
not see a need to include a field in PostalOne! for employees to document the advice
provided to mailers regarding late arriving political campaign mail because the system
already has a field where comments are captured. The postage statements also have a
comments section located at the bottom of the statement where employees can enter
any additional information relevant to the mailing. Management agreed to add a
comment in the political mail section of Handbook DM 109 to provide employees
guidance on how to document the advice provided to mailers regarding late arriving
political campaign mailings. Management plans to accomplish this action by the end of
2008.

Management agreed with recommendation number 5. They will conduct
communications and training awareness around election periods and include evaluation
of this process in their self-audits. Management plans to accomplish these actions by
the end of 2008.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 4 and 5. However, management should
also revise the Postal Operations Manual (POM) to provide employees guidance on
how to document the advice they provide to mailers regarding late arriving political
campaign mailings. Management’s corrective actions will resolve the issues identified
in the report.




                                           4
Political Campaign Mailings                                                     MS-AR-08-006




Political Campaign Mail Inquiries and their Resolution

Officials did not always document political campaign mail inquiries and their resolution
because Postal Service policies in this area do not specify the officials responsible for
accepting, processing, and documenting political mail inquiries, or provide guidance on
the procedures to perform these functions. The Postal Service will not have adequate
documentation to address customer complaints if officials do not document political
campaign mail inquiries and their resolution. This could result in the refund of postage
fees and negative publicity. Click here to go to Appendix B for our detailed analysis of
this topic.

We recommend the Acting Senior Vice President, Operations, coordinate with the Vice
Presidents, Area Operations, to:

6. Develop standard operating procedures for accepting, processing, and documenting
   political mail inquiries and their resolution. The standard operating procedures
   should clearly define areas of responsibility and provide a method for tracking
   political mail inquiries and their resolution.

7. Provide training for officials responsible for resolving political campaign mail
   complaints to make them aware of the requirements for handling political campaign
   mail inquiries and their resolution.

Management’s Comments

Management agreed with recommendations 6 and 7, but indicated the responsibility
rests with the Postal Service’s Office of Consumer Advocate

Evaluation of Management’s Comments

A cross-functional group of Postal Service officials including officials from Consumer
Advocate, Delivery Operations, and Network Operations met to discuss
recommendations 6 and 7. The group decided it was appropriate to address these
recommendations to the Acting Senior Vice President, Operations. We believe this is a
cross-functional issue and the Acting Senior Vice President, Operations, should
coordinate with other responsible officials to resolve the issue. Consequently,
management’s corrective actions will not resolve the issues identified in the report.

Other Matters

The Postal Service may be subsidizing political candidates and committees by providing
First-Class service for materials they mail at Standard Mail rates. During our field visits,




                                             5
Political Campaign Mailings                                                                            MS-AR-08-006



we found that Albuquerque, Maine, and Chicago Business Mail Entry Unit (BMEU) 1
employees expedite all political campaign mailings during processing and distribution.
This practice results in employees providing First-Class service for political campaign
materials mailed at Standard Mail rates.

Headquarters Pricing and Classification officials stated that Postal Service policy does
not explicitly require employees to expedite all political campaign mailings. However, it
is common practice for employees to expedite these mailings due to their sensitive
nature.

Postal Service policies and procedures address the end to end service standards2 for
First-Class and Standard Mail. The end-to-end service standards for First-Class Mail
and Standard Mail are 1 to 3 days and 3 to 10 days, respectively.

Because of the expedited handling that First-Class Mail receives, the Postal Service
incurs higher costs than for Standard Mail, and consequently charges the customer
higher prices. By treating Standard Mail as First-Class, the Postal Service may be
forfeiting revenue. We were unable to determine the amount of revenue forgone
because officials did not maintain records that document the level of service provided to
mailers who mailed political campaign material at Standard Mail rates.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. We view the disagreements on recommendations 1
and 2 as unresolved and plan to pursue them through the formal audit resolution
process. Additionally, we plan to pursue the issues associated with the implementation
of corrective actions to recommendations 6 and 7 through the formal audit resolution
process.




1
  A BMEU is the area of a postal facility where mailers present bulk, presorted and permit mail for acceptance. The
BMEU includes dedicated platform space, office space, and a staging area on the workroom floor.
2
  End-to-end service standards are day ranges for mail originating and destined for delivery within the 48 contiguous
states and the District of Columbia.




                                                          6
Political Campaign Mailings                                                  MS-AR-08-006



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Stephen M. Kearney
    Thomas G. Day
    Delores J. Killette
    Katherine S. Banks




                                            7
Political Campaign Mailings                                                                               MS-AR-08-006



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service plays a vital role in the American democratic process by
ensuring political campaign material mailed by registered political candidates3 and
political committees4 is delivered to voters as quickly as possible. Political campaign
mail is material mailed at First-Class Mail or Standard Mail postage rates for political
campaign purposes by a registered political candidate, campaign committee, or
committee of a political party.5 Political campaign mail allows candidates and
committees to use the mail for fundraising, recruiting volunteers, informing voters about
key issues, and increasing voter turnout. The candidate’s political party or campaign
committee normally uses its address as the return address on the political campaign
mailings. Federal or state law often requires political campaign mail to use the
endorsement “Paid by [committee] and authorized by [candidate].”

Postal Service policy requires employees to record political campaign mail in the
political mail log. BMEU managers and postmasters6 are required to maintain these
records for 6 months. At a minimum, the mailing record must include:7

    •    The name of the mailer.

    •    A sample, photocopy, or description of the mailing.

    •    The date and time the mailing was received for dispatch or delivery.

    •    The election day deadline and, if applicable, the date of requested delivery.

    •    If applicable, the approximate number of pieces not delivered before the election
         day deadline and/or the date of requested delivery and the reasons why delivery
         was not timely.

    •    The approximate volume of any Standard Mail consigned to waste upon
         instruction by the mailer.

3
  A registered political candidate is an individual or organization recognized as such by the appropriate governmental
election control authority.
4
  A combination of two or more individuals, including any political party governing body, whether state or local,
making expenditures to support or oppose any candidate for public office or measure, but does not include a voter
registration program.
5
  An individual or organization recognized as such by the appropriate governmental election control authority is
considered to be a registered political candidate or party. Qualified political committees are national or state
committees of political parties, the Democratic Congressional or Senatorial Campaign Committee, and the National
Republican Congressional or Senatorial Committee.
6
  A postmaster is the manager in charge of a post office. A post office is the basic organizational unit of the U. S.
Postal Service. Generally, each post office has primary responsibility for collection, delivery, and retail operations in
a specific geographic area.
7
  POM, Sections 492.51 and 492.53.




                                                            8
Political Campaign Mailings                                                      MS-AR-08-006




Officials expedite political campaign mailings because they are time sensitive. Mailers
should attach Postal Service (PS) Tag 57, Political Campaign Mailing, to the mail to
assist employees with identifying political campaign mail. The Postal Service uses PS
Tag 57 to identify political campaign mailings during processing and distribution.
Management must give immediate attention to political campaign mail when it receives
information regarding processing or delivery delays. Officials should document inquires
made and the actions taken resulting from the delay of mail caused by processing or
delivery.

If political campaign mailings arrive too late for delivery by the election date, officials
should inform the mailer and document and maintain the notification in the political mail
log. Management must also maintain these documents for a period of 6 months. In
addition, if a significant portion of political campaign mail is undeliverable as addressed,
officials must notify the campaign office before they dispose of the mail.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether U.S. Postal Service officials:

       Recorded political campaign mailings in the political mail log before inducting the
        mailings into the mail stream.

       Notified mailers who deposited political mailings that may be too late for delivery
        by the election date, of the potential for late delivery, and documented the advice
        provided to them in the political mail log.

       Documented all political campaign mail inquiries and their resolution.

We conducted our work at the Albuquerque District in New Mexico, the Maine District in
Maine, and the Chicago District in Illinois. We selected the Albuquerque and Maine
Districts because of news articles and complaints alleging the late delivery of political
campaign mail that was handled at these locations. We selected the Chicago District
because of the volume of political campaign mail handled at this location. Our scope
covered political campaign mailings received at BMEUs and post offices during
Quarters 1 and 2 of fiscal year (FY) 2008. We limited our scope to Quarters 1 and 2 of
FY 2008 because BMEU managers and postmasters are required to maintain
processing and delivery records for only 6 months.

To accomplish our objectives, we:

    •   Reviewed the Postal Operations Manual and Handbook DM 109 to obtain an
        understanding of the political campaign mail process.




                                             9
Political Campaign Mailings                                                                          MS-AR-08-006



    •   Analyzed political campaign mail mailings recorded in the PostalOne! system8
        and the political mail logs for the Albuquerque, Maine, and Chicago Districts for
        Quarters 1 and 2 of FY 2008 to determine whether all political campaign mailings
        were recorded in the political mail log.

    •   Interviewed Headquarters Business Mail Acceptance, and Albuquerque, Maine,
        and Chicago District officials to determine whether they have a system to ensure
        all political campaign mailings received are recorded in the political mail log.

    •   Interviewed Albuquerque, Maine, and Chicago District officials to determine
        whether they notified mailers who deposited political mailings that may be too
        late for delivery by the election date, of the potential for late delivery, and
        documented the advice on the political mail log.

    •   Interviewed Headquarters Business Mail Acceptance, Government Relations,
        and Consumer Affairs; and Albuquerque, Maine, and Chicago District officials to
        determine whether they documented all political campaign mail inquires and their
        resolution in the political mail log.

    •   Interviewed Headquarters Pricing and Classification, and Albuquerque, Maine,
        and Chicago District officials to determine why employees expedite all political
        campaign mailings during processing and distribution.

We conducted this performance audit from March through August 2007 and December
2007 through September 2008 in accordance with generally accepted government
auditing standards and included such tests of internal controls as we considered
necessary under the circumstances.9 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We relied on data obtained from PostalOne!. We did not
directly audit PostalOne!, but performed a limited data integrity test to support relying on
the data. We discussed our observations and conclusions with management officials on
August 13, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has not issued any audit reports directly related to our objectives.



8
  PostalOne! is a web-based system that offers a suite of services for business mailers and BMEU employees.
PostalOne! provides BMEU employees the ability to enter postage statements, deposits, and other financial
transactions, and retrieve reports necessary to manage the day-to-day business in their units. PostalOne! also
provides mailers the ability to submit information to the Postal Service.
9
  We suspended the project from August through December 2007 due to resource constraints.




                                                         10
Political Campaign Mailings                                                       MS-AR-08-006




                               APPENDIX B: DETAILED ANALYSIS

Political Campaign Mail Recordkeeping Needs Improvement

Officials did not always record political campaign mailings in the political mail log before
inducting the mailings into the mail stream. We reconciled mailings identified in
PostalOne! as political campaign mailings to the political mail log. The Albuquerque,
Maine, and Chicago BMEUs did not record 5 percent (7 of 152) of the mailings identified
in PostalOne! as political campaign mailings in the manual political mail log for Quarters
1 and 2 of FY 2008. In addition, officials maintained duplicate political campaign mail
recordkeeping systems – an automated recordkeeping system contained in PostalOne!
and a manual log.

As shown in Table 1 below, information contained in the two systems did not always
reconcile. For Quarters 1 and 2 of FY 2008, officials at the Albuquerque, Maine, and
Chicago BMEUs recorded 152 political campaign mailings in PostalOne! compared to
435 in the manual log. OIG and Albuquerque, Maine, and Chicago BMEU officials
traced the transactions recorded in the manual log into PostalOne! and confirmed that
the Postal Service collected postage on all 435 political campaign mailings.

                                             Table 1
                              Number of Political Campaign Mailings
                                  Quarters 1 and 2 of FY 2008

                                                                              Political
                                                       Political            Mailings in
                                                      Mailings in           the Manual
                                                    PostalOne! but         Log but not
                                        Manual        not in the           Identified in
         Districts    PostalOne!          Log        Manual Log             PostalOne!
       Albuquerque         xx             xxx              x                    Xx
       Maine                x              x               x                     X
       Chicago            xxx             xxx              x                    xxx
       TOTAL              152             435              7                    299
      Source: PostalOne! and the Political Mail Logs

Postal Service policy states managers, Business Mail Entry, and postmasters must
keep documented records of all political campaign mailings deposited or received at
their offices, with particular attention to those deposited or received too late for timely
delivery. Employees must track political mailings daily on the political mail log.10

10
     Handbook DM 109, Section 273.




                                               11
Political Campaign Mailings                                                     MS-AR-08-006




According to managers at the Albuquerque, Maine, and Chicago BMEUs, employees
are aware of the requirements to record political campaign mailings in the political mail
log before inducting the mailings into the mail stream. However, they do not always
comply with the requirements. Officials indicated that there are no controls to identify
these errors. Because there were no controls to ensure all political mail transactions
were recorded, we were unable to ascertain whether all political mailings were recorded
in either the political mail log or PostalOne!. As a result, the Postal Service may not
have adequate records to resolve customer complaints. This could also result in refund
of postage, negative publicity, and an adverse impact on the Postal Service’s goodwill
and brand.

The Postal Service is also expending unnecessary labor costs to maintain duplicate
political campaign mail recordkeeping systems. In 2004, Headquarters Business Mail
Acceptance officials initiated actions to automate the political mail recordkeeping
process in PostalOne!. However, officials did not coordinate their efforts with end users
to properly implement the automated system and eliminate the manual process. The
current Headquarters Business Mail Acceptance officials stated they cannot explain why
the previous officials did not complete the automation of the political mail recordkeeping
system contained in PostalOne!. Currently, employees have the option of checking the
political mail indicator box in PostalOne! to identify mailings in the system as political
campaign mail. If employees do not check the indicator box, PostalOne! does not
record the transactions as political campaign mailing. As a result, 299 of 435 (69
percent) political campaign mailings recorded in the manual log were not identified in
PostalOne! as political campaign mailings.

Mailings Deposited too Late for Delivery by the Election Date

Officials did not always notify mailers who deposit political mailings that may be too late
for delivery by the election date, of the potential for late delivery, and document the
advice provided to them in the political mail log. Albuquerque and Maine BMEU
employees document the advice they provide to mailers on the postage statements.
Chicago BMEU employees accept political campaign mailings that may be too late for
delivery by the election date, but they do not notify mailers of the potential for late
delivery.

Albuquerque BMEU employees stated they have had to adhere to several different
standard operating procedures (SOP) over the years. They could not specify which
SOP they are following or provide us with copies of their current or previous local SOPs.
However, they indicated that they have been documenting the notifications on the
postage statements instead of the political mail log.

By memoranda dated September 4, 2002, and May 14, 2008, the Political Mail
Coordinator for the Maine District issued instructions to Maine BMEU employees to
document, in the political mail log and the comments section of the postage statements,




                                             12
Political Campaign Mailings                                                     MS-AR-08-006



the advice given to mailers who deposit political campaign mailings that may be too late
for delivery by the election date, of the potential for late delivery. Because the political
mail log does not provide a field to document the notifications, Maine BMEU employees
devised their own method of documentation. Mailers who deposit political campaign
mailings that may be too late for delivery by the election date at the Maine BMEU are
required to sign a disclaimer that is prepared on stickers/labels. By signing the
disclaimers, mailers acknowledge that Maine BMEU employees advised them that they
deposited mail that may be too late for delivery by the election date. The stickers/labels
are affixed on the postage statements.

Chicago BMEU employees stated their local SOP does not instruct them to notify or
document advice given to mailers who deposit political mailings that may be too late for
delivery by the election date, of the potential for late delivery.

Both the Handbook DM 10911 and the POM provide guidance for handling late
deposited political mail. The Handbook DM 109 specifies that employees should
document advice provided to mailers who deposit late political campaign mailings in the
political mail log, while the POM12 requires that the advice be documented, but does not
specify where this information should be documented. Although Xxxxxxxxxxx and
Xxxxx BMEU employees are not documenting the advice on the political mail log as
required by Handbook DM 109, they are complying with the POM.

If officials do not notify mailers that their political campaign mailings may not be
delivered by the election date, mailers may not have the opportunity to use alternate
delivery methods such as handing out the campaign material to potential voters.
Additionally, if officials do not document the advice provided to mailers of the potential
for late delivery, the Postal Service may not have adequate documentation to resolve
customer complaints. This could result in the refund of postage fees, negative publicity,
and an adverse impact on the Postal Service brand.

Political Campaign Mail Inquiries and their Resolution

Officials did not always document political campaign mail inquiries and their resolution.
Albuquerque District Consumer Affairs officials document political campaign mail
inquires and their resolution in the Customer Activity Response and Exchange system.
Xxxxx District officials do not document any political campaign mail inquiries and their
resolution, while the Xxxxxxx District Consumer Affairs officials use a manual file to
track political campaign mail inquiries and their resolution.

These conditions occurred because Postal Service policies in this area do not specify
the officials responsible for accepting, processing, and documenting political mail
inquiries, or provide guidance on the procedures to perform these functions. Postal


11
     Handbook DM 109, Section 273.
12
     Postal Operations Manual, Section 492.43.




                                                 13
Political Campaign Mailings                                                    MS-AR-08-006



Service policy states officials should fully document inquiries made and the actions
taken resulting from the delay of mail due to processing or delivery.13

The Postal Service will not have adequate documentation to address customer
complaints if officials do not document political campaign mail inquiries and their
resolution. This could result in the refund of postage fees, negative publicity, and an
adverse impact on the Postal Service’s goodwill and brand.




13
     POM, Section 492.44.




                                            14
Political Campaign Mailings                                 MS-AR-08-006



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                       15
Political Campaign Mailings        MS-AR-08-006




                              16
Political Campaign Mailings        MS-AR-08-006




                              17
Political Campaign Mailings        MS-AR-08-006




                              18
